No, 21-5095

 

In THE
Supreme Court of the United States

 

MELISSA ELIZABETH LUCIO,
Petitioner,

v.
Boppy LUMPKIN, DIRECTOR, TEXAS DEPARTMENT
OF CRIMINAL JUSTICE, CORRECTIONAL

INSTITUTIONS DIVISION,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

 

BRIEF OF FORMER PROSECUTORS,
ANTI-VIOLENCE ORGANIZATIONS, AND
EXPERTS IN THE FIELD OF GENDER-
BASED VIOLENCE AS AMICI CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,892 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 16, 2021.

I

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
